        OFFICE OF INSPECTOR GENERAL



                                   Catalyst for Improving the Environment


Evaluation Report


         Source Water Assessment and
         Protection Programs Show Initial
         Promise, But Obstacles Remain
         Report No. 2005-P-00013

         March 28, 2005
Report Contributors:	                      Ira Brass
                                           Frank Pelczarski
                                           Holly Sage


Abbreviations

BLM            Bureau of Land Management
DWSRF          Drinking Water State Revolving Fund
EFC            Environmental Finance Center
EPA            Environmental Protection Agency
IDEQ           Idaho Department of Environmental Quality
MOU            Memorandum of Understanding
NDEQ           Nebraska Department of Environmental Quality
NRWA           National Rural Water Association
OGWDW          Office of Ground Water and Drinking Water (EPA)
OIG            Office of Inspector General
PWS            Public Water System
RWA            Rural Water Association
SDWA           Safe Drinking Water Act
SWAP           Source Water Assessment Program
SWAPP          Source Water Assessment and Protection Programs
SWPP           Source Water Protection Program
TDEC           Tennessee Department of Environment and Conservation
USFS           United States Forest Services
WHPP           Wellhead Protection Program

Cover photo:      Cleveland Utilities, Tennessee Wellhead Protection Area.
Photo below:      Beaver Lake, Nebraska, reservoir.
                  (Both photos by EPA Office of Inspector General)
                        U.S. Environmental Protection Agency                                              2005-P-00013

                                                                                                         March 28, 2005

                        Office of Inspector General


                        At a Glance
                                                                         Catalyst for Improving the Environment
Why We Did This Review            Source Water Assessment and Protection Programs
We conducted this review to       Show Initial Promise, But Obstacles Remain
determine how well the
Source Water Assessment            What We Found
Program (SWAP) and the
voluntary Source Water            Source water assessments are being used by (1) some States to improve the overall
Protection Program (SWPP)         drinking water protection program by prioritizing protection efforts and program
are helping to protect public     resources, and by (2) assistance organizations in education and outreach efforts in
drinking water quality.           developing and implementing protection measures. However, at the local level,
                                  assessment use is limited. While seen as a good starting point, some limitations of
Background                        the assessments themselves and other barriers hinder their potential for success in
                                  leading to local-level initiation and implementation of source water protection
The Safe Drinking Water Act       measures.
Amendments of 1996 provide
the means to protect the          While States continue to make progress on completing source water assessments
Nation’s drinking water at its    and many are developing and implementing source water protection strategies, we
source. With SWAP, EPA            have identified several obstacles that hinder States’ efforts to protect source water.
requires States to conduct        Despite EPA’s best efforts, the program remains vulnerable. For the SWAP and
source water assessments to       SWPP to support drinking water protection over the long term, EPA needs to
analyze existing and potential    develop a more secure and consistent funding source. States and local entities will
threats to public drinking        also have to rely strongly on intra- and inter-agency coordination, program
water quality. SWAP intends       integration, partnerships, and collaborative efforts to leverage human and financial
for States to follow the          resources, technical assistance, and outreach to utilities and communities.
assessment process by
developing protection              What We Recommend
programs. Though source
water protection is not           To improve the success of Federal, State, and local source water protection

mandated by the statute,          programs, we recommend that the Assistant Administrator for Water:

EPA’s SWPP supports States
and communities in these            •	   Issue a public statement to re-affirm that the Source Water Assessment and
efforts.                                 Protection Programs are a priority for EPA.
                                    •	   Encourage States to target assessments not only to utilities, but also to local
                                         governments, councils, planners, building and zoning officials, and other
For further information,                 stakeholders.
contact our Office of               •	   Provide guidance to States on how to leverage financial and technical
Congressional and Public                 resources from other EPA programs, partners, and stakeholders.
Liaison at (202) 566-2391.          •	   Continue to improve cooperation and coordination between States and EPA
                                         assistance contractors.
                                    •	   Work with Regions and States to (1) integrate environmental programs and
To view the full report,                 (2) determine how best to disseminate locally-applicable best practices
click on the following link:             for contaminant source management and motivation.
www.epa.gov/oig/reports/2005/
20050328-2005-P-00013.pdf
                                 EPA generally agreed with our findings and recommendations and in some cases
                                 has taken actions to address them.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460



                                                                                      OFFICE OF
                                                                                 INSPECTOR GENERAL




                                        March 28, 2005

MEMORANDUM


SUBJECT:	           Evaluation Report: Source Water Assessment and Protection Programs
                    Show Initial Promise, But Obstacles Remain
                    Report No. 2005-P-00013

FROM:	              Dan Engelberg /s/
                    Director of Program Evaluation, Water Issues

TO:	                Benjamin Grumbles
                    Assistant Administrator for Water


This is our final report on the Source Water Assessment and Source Water Protection Programs
conducted by the Office of Inspector General (OIG) of the U.S. Environmental Protection
Agency (EPA). This report contains findings that describe the problems the OIG has identified
and corrective actions the OIG recommends. This report represents the opinion of the OIG, and
the findings contained in this report do not necessarily represent the final EPA position. Final
determinations on matters in this report will be made by EPA managers in accordance with
established audit resolution procedures.

On January 25, 2005, the OIG issued a draft report to EPA for review and comment. A response
was submitted on March 4, 2005, and an exit conference was held on March 10, 2005. EPA
agrees that source water assessments have potential to improve drinking water protection, while
acknowledging that the assessment content, utility, and availability can be improved. EPA also
agrees that moving from assessment to voluntary protection will require substantial effort,
including State and local capacity building, program integration, and inter-agency coordination.
EPA generally concurred with our recommendations and in some cases has taken actions to
address them. EPA provided an update on State assessment completion progress and details as to
the actions the Agency is taking to support State and local protection efforts. The OIG has
incorporated these comments, as well as technical corrections and supplemental information
provided by EPA, into the final report.
Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 90 calendar days of the date of this report. You should include a corrective action
plan for agreed upon actions, including milestone dates. We have no objections to the further
release of this report to the public. For your convenience, this report will be available at
http://www.epa.gov/oig. In addition to providing a written response, please e-mail an electronic
version to Brass.Ira@epa.gov.

If you or your staff have any questions regarding this report, please contact me at (202) 566­
0830 or Ira Brass at (212) 637-3057.
                                Table of Contents

At a Glance


Chapters
     1        I	ntroduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

                   Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1

                   Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1

                   Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                3

                   Results in Brief . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       4


     2	       States Making Progress on Assessments and Protection,

              Though Obstacles Exist . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                6


                   States Making Progress on Assessment and Protection . . . . . . . . . . . . . . 6 

                   States Are Using a Variety of Approaches to Source Water Protection . . . 8

                   Obstacles Hinder State Efforts to Protect Source Water . . . . . . . . . . . . . 10 

                   Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 

                   Agency Comment and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11 


     3	       Source Water Assessments Valuable, But Use and Accessibility

              are Limited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        12 

                 States and Assistance Organizations Making Good Use 

                     of Assessments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                13 

                 Assessment Use Limited at Local Level . . . . . . . . . . . . . . . . . . . . . . . . .                           13 

                 Assessment Limitations Impede Transition to Protection . . . . . . . . . . .                                      16 

                 Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          18 

                 Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                18 

                 Agency Comment and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         18 


     4	       Substantial Obstacles Faced, But Opportunities to Overcome Exist . .                                                 20

                 State Programs Face Obstacles to Protection Goals . . . . . . . . . . . . . . .                                   20 

                 Key Factors in SWAPP Potential for Success . . . . . . . . . . . . . . . . . . . .                                25 

                 Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          30 

                 Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             31 

                 Agency Comment and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . .                         32 





                                                               i
Appendices
  A   Participants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   33 


  B   Challenges Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          35 


  C   Motivating Factors . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37 


  D   Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38 


  E   Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49 





                                                      ii
                                    Chapter 1
                                     Introduction
Purpose

          Our overall evaluation question was to determine how well the Source Water
          Assessment and Protection Programs (SWAPP) were protecting public drinking
          water quality. We addressed the following questions:

          •	 What is the status of source water protection implementation?
          •	 How effective are source water assessments in assisting States and
             communities to successfully implement drinking water protection measures?
          •	 What is the potential for the SWAPP to support State and local water
             protection goals?

Background

          The Safe Drinking Water Act (SDWA) Amendments of 1996 (Amendments) aim
          to protect the nation’s drinking water at its sources (source water) to reduce water
          treatment costs and risks to public health. The term “source water” refers to
          untreated water from streams, rivers, lakes, or underground aquifers that supplies
          private wells and public drinking water.

          The SDWA Amendments require each State to develop a source water assessment
          program. A State source water assessment program serves as a plan to analyze
          existing and potential threats to public drinking water quality. Examples of
          threats to drinking water include pesticide and nutrient run-off from agricultural
          lands, petroleum from leaking underground storage tanks, and pathogens from
          failing septic tanks. At the Federal level, the EPA Drinking Water Protection
          Division of the Office of Ground Water and Drinking Water (OGWDW)
          administers the Source Water Assessment Program (SWAP) along with EPA’s 10
          regional drinking water programs to assist States in the assessment process.
          SWAP is one of several provisions of the Amendments (including water system
          operator certification, capacity development, funding for infrastructure
          improvement, and public education) aimed at protecting drinking water.


          Once an assessment is completed for each public drinking water source, the
          expectation is that they can be used to develop and implement drinking water
          protection activities so that contamination and subsequent health impacts and/or
          water supply closure may be avoided. EPA's Source Water Protection Program
          (SWPP) is intended to support States and local entities in protection activities.
          However, protection is not mandated by the Amendments; the SWPP relies on
          voluntary State and local efforts. Responsibility for source water assessment and

                                            1
protection programs at the State level is assigned to either environmental or health
agencies. The principle underlying these programs is that prevention is more
effective and efficient than treatment. The ultimate goal of an assessment and
protection program is to prevent public drinking water source contamination,
subsequent expensive treatment, and consumer health threats.


SWAP was intended to encourage States and local entities to form voluntary
partnerships to develop source water protection strategies. This voluntary
approach is encouraged because protection of source water requires attention to
land use activities to control non-point sources of pollution. Land use decisions
are typically made at the local level because of the authority granted to
municipalities by States. It is therefore difficult for State and Federal
governments to intervene in such decisions.


Every State has the opportunity to access Federal money [a portion of the
Drinking Water State Revolving Fund (DWSRF)] to accomplish source water
assessment and protection efforts. Up to 10 percent of a State’s DWSRF may be
set aside for State program management and to support source water protection
programs (31.5 million expended through June 2004). Funds could also be made
available from a State’s capitalization grant for local protection activities, land
acquisition and conservation easements, voluntary incentive-based source water
protection programs, or for continued implementation of other drinking water
protection activities, such as State wellhead protection programs ($66.7 million
expended through June 2004).


 Drinking water sources are facing large and growing threats. Because water is
the universal solvent, many materials that are produced or discharged are readily
dissolved, and can then be transported into streams or aquifers that are used as
drinking water sources. If detected and found to exceed drinking water standards,
this contamination can result in wells being shut down or necessitating expensive
treatment to remove the pollutants. If undetected, or if no drinking water standard
covering the pollutant exists, this contamination could subject consumers to
health risks.

Across the nation, numerous wells have been closed as a result of source water
contamination. For example, according to press reports, drinking water supply
wells in Escambia County, Florida, have been contaminated with dry cleaning
solvents, pesticides, or petroleum products from Superfund hazardous waste sites,
dry cleaning facilities, and petroleum storage tanks. The contamination has




                                 2
         resulted in a moratorium in constructing new wells in the vicinity of the
         Superfund site, well closures, and water filtration. This demonstrates that even
         inadvertent behaviors can endanger drinking water sources.

         In another recent case in Iowa, drinking water wells were shut down after EPA
         detected the chemical perchlorate. EPA believes that this contamination may
         have happened when partially exploded fireworks that were ground up during a
         harvest released the chemical, which then migrated to the groundwater. Clearly,
         controlling sources of contamination is extremely complex because effective
         protection involves individual behavior to a greater extent than other
         environmental protection activities. This situation raises difficult issues of the
         rights of individuals and governments.

         Source water protection is just one component of the multiple-barrier approach to
         providing safe drinking water (including source water protection, treatment as
         appropriate, distribution system maintenance, and monitoring). Drinking water
         quality depends on the effectiveness of Federal and State regulations in place to
         protect surface and groundwater, local land use decisions, commercial sector
         operations, and can be negatively affected by the actions of individual citizens.
         Therefore, even if SWAPP were effectively executed, it cannot protect all
         sources, nor ensure safe drinking water.


Scope and Methodology

         We conducted our evaluation from May 2004 through November 2004 in
         accordance with Government Auditing Standards, issued by the Comptroller
         General of the United States. To gain a broad perspective of source water
         protection activities, we interviewed staff at EPA’s OGWDW and all 10 Regions.
         We also interviewed officials in State environmental and/or health offices in
         Colorado, Delaware, Nebraska, New Hampshire, and Tennessee; officials of local
         governments, utility districts, and watershed groups in those States; industry and
         assistance organizations; and representatives of two Federal agencies, the United
         States Forest Service and Bureau of Land Management. We list all participants
         we visited and interviewed in Appendix A.

         We conducted structured interviews with all participating Regions and States.
         Regions were provided with a questionnaire in advance to aid the discussion. We
         reviewed and analyzed SWAP plans to determine the source water protection
         approach States had in place or were planning to develop, local protection plans,
         and land use regulations.




                                          3
           We selected the States based on several factors, including (1) differing protection
           approaches, (2) geographic diversity, (3) varying assessment and implementation
           progress, and (4) varying water quality and management issues. We avoided
           selecting any States visited during our preliminary research (included in the
           recent report discussed below) and those States visited by other Office of
           Inspector General (OIG) water assignment teams during the course of our field
           work. To aid in our decision making, we sought advice of OGWDW and
           Regional officials because of their greater familiarity and broader view of the
           overall program. We also sought advice from State officials in selecting the
           localities we visited. Our findings and recommendations are based on visits and
           interviews conducted during preliminary research and fieldwork. Although our
           conclusions are drawn from commonalities among participants, this study did not
           employ a statistical sampling approach.

           On May 27, 2004, the OIG issued States Making Progress on Source Water
           Assessments, But Effectiveness Still to Be Determined (Report No. 2004-P­
           00019), detailing our preliminary research work on source water assessments.
           Only 40 percent of the States had fully completed their community water system
           assessments and made them public by September 30, 2003. Still, the States had
           made significant progress since 2002; the States we visited were working hard
           toward completing the task. The assessments appeared to have been beneficial.
           While State approaches differed, the consensus was that the information obtained
           from the assessment process and the quality of the assessments were sufficient to
           lead to protection efforts, and that the assessments could be incorporated into
           other water quality management programs. Nonetheless, several stakeholders
           raised concerns about the usefulness of some assessments. We also found that
           EPA’s program measures evaluated process rather than results, and that States
           were unsure how to balance the program requirement of public availability of the
           assessments with security concerns.

           We recommended that in the EPA/State workgroup discussions to finalize the
           SWAP measures and reporting requirements, EPA should revisit the State agency
           concerns raised in this report, solicit and evaluate alternatives, and resolve the
           concerns to the satisfaction of the group. We also recommended that EPA
           continue its effort to develop and issue guidance for States on what information is
           appropriate for release to the public. EPA generally agreed with our
           recommendations and has indicated it is taking appropriate corrective actions.

Results in Brief

           States continue to progress in completing source water assessments and many are
           developing and implementing a variety of source water protection strategies. We
           found that States and assistance organizations are using source water assessments
           in education and outreach efforts in developing and implementing protection
           measures. However, assessment use has been limited at the local level. While

                                            4
States see assessments as a good starting point, limits of the assessments
themselves and other barriers hinder their potential for success in leading to local-
level initiation and implementation of source water protection measures.

Several obstacles have been identified that hinder States’ efforts to protect source
water. These obstacles are such that despite EPA’s best efforts, the program is
vulnerable. For SWAPP to support drinking water protection over the long term,
a more secure and consistent funding source will be necessary. States and local
entities will also have to rely strongly on intra- and inter-agency coordination,
program integration, partnerships, and collaborative efforts to leverage human
and financial resources, technical assistance, and outreach to utilities and
communities.

The EPA Office of Water, in its response to the draft report (March 4, 2005),
agreed that source water assessments have the potential to improve drinking water
protection, while acknowledging that the assessment content, utility, and
availability can be improved. EPA also agreed that moving from assessment to
voluntary protection will require substantial effort, including State and local
capacity building, environmental program integration, and inter-agency
coordination. EPA generally concurred with our recommendations and in some
cases has taken actions to address them.




                                  5
                               Chapter 2
  States Making Progress on Assessments and Protection,
                  Though Obstacles Exist

         States continue to make progress on completing source water assessments. Many
         are developing and implementing source water protection strategies, and States
         are using a variety of approaches to source water protection, including outreach
         and technical assistance, regulations, watershed management, wellhead protection
         programs, and integration with Clean Water Act and Resource Conservation and
         Recovery Act programs. Nonetheless, obstacles exist that hinder States’ ability
         to ensure drinking water quality.

States Making Progress on Assessment and Protection

         According to the 1996 SDWA Amendments and EPA guidance, States were
         required to complete their source water assessments and make them available to
         the public within 2 years of EPA approval of a State source water assessment
         program plan. Draft plans were due to EPA for review by February 1999, and
         EPA was to approve the assessment program plans within 9 months. Therefore, a
         plan submitted to EPA by February 1999 and approved 9 months later (November
         1999), would mean that the assessments would be expected to be completed by
         November 2001. However, SDWA allowed an 18-month extension to this 2-year
         timeframe (to May 2003), which many States received. Approximately
         60 percent of the scheduled deadlines fell on or before May 2003, though
         scheduled deadlines ranged from January 2003 to June 2004. Although not
         required, States were then expected to begin developing a source water protection
         approach, as outlined in their EPA-approved assessment plan. States had a great
         deal of flexibility in how to proceed toward source water protection.

         EPA OGWDW reports that as of February 2005, States have completed
         assessments for 93 percent of community drinking water systems and 83 percent
         of non-community systems (86 percent of all assessments are completed). Thirty-
         four States, plus Washington D.C, have completed community and non­
         community system assessments and have made them available to the public (for
         details see Appendix D-Agency Response). Twenty States had completed
         community systems only as of September 2003.

         States are at various stages of developing and implementing source water
         protection strategies. The number of States implementing protection strategies is
         greater than the number that have developed approaches because some States are
         involved in these activities simultaneously. Many more States are planning and
         implementing groundwater than surface water protection because they had an


                                          6
                active Wellhead Protection Program (WHPP)1 in place prior to the SWAP. A
                State WHPP is similar to a State SWAP. Some States are using their WHPP as a
                framework to develop a surface water protection strategy, but progress can be
                delayed when groundwater and surface water programs are managed by different
                agencies or divisions. Twelve States have not yet begun to develop a surface
                water protection strategy, compared to three for groundwater. In these cases,
                drinking water may be protected indirectly in some areas through watershed
                management programs. However, EPA Regional officials did not necessarily
                report these activities as a State source water protection approach.

                Figure 2.1 shows State implementation progress to date as reported by EPA
                OGWDW. Our study did not evaluate the effectiveness of protection activities in
                preventing contamination.


                Figure 2.1: Source Water Protection Status




                         45                                         42
                         40
                         35
                                                               31
                         30
                                  25 26
           Number of 25                              23
             States 20                                                              17
                                                16
                         15                                                    12
                         10
                          5
                          0
                              Planning In-   Approach     Implementation   Monitors and
                               Progress      Developed      In-Progress     Evaluates
                                                                            Progress
                                       Program Milestone

                                     Surface Water     Groundwater




1
 WHPP was established in 1986 by the SDWA; it is a pollution prevention and management program used to protect
underground based sources of drinking water. All States, except Virginia, have EPA-approved State WHPP
programs



                                                      7
States Are Using a Variety of Approaches to Source Water Protection

          Though the SDWA and EPA do not mandate that States implement source water
          protection, the SWAP intended for States to follow the source water assessment
          process by developing protection programs. There are many approaches States
          may take with varying degrees of State involvement and coordination with other
          programs. State approaches to source water protection generally fall into four
          categories, though these are not mutually exclusive. The majority of States use a
          combination of approaches. Examples of the approaches used alone or as part of
          a State strategy are as follows:

          State-Driven Local Management Approach

          The State is proactive in assisting
          communities and public water systems (PWS)                  State-Driven
                                                               Local Management Approach
          with financial, technical, and/or
                                                              Nebraska manages a Source
          administrative support in protection efforts,       Water Protection Grant Program
          education and outreach, and/or other                ($200,000/year) and funds
          guidance; the State has a law requiring             Natural Resource District
          protection, e.g., water systems must complete       representatives to assist
                                                              communities in developing and
          Source Water Protection Plans; and/or the           implementing WHPPs.
          State regulates development and/or other
          activity within source water protection areas
          or designated buffer zone.

          Comprehensive Approach
                                                              Comprehensive Approach
          The State uses a watershed approach,                Washington State’s Growth
                                                              Management Act requires
          comprehensive aquifer protection program, or        ordinances to classify,
          wellhead protection program that minimizes          designate, and regulate land
          risk from various potential contaminant             use in order to protect critical
          sources.                                            aquifer recharge areas and
                                                              watersheds.


          Integrated Approach

          The State uses its assessment and protection           Integrated Approach
          program to highlight or better integrate             In Idaho, the Clean Water Act
          drinking water protection goals into ongoing         and SDWA are integrated
                                                               through using Nonpoint Source
          water quality management and other                   Pollution grants to prioritize
          environmental programs; or the State uses            and fund groundwater and
          assessment information to prioritize resources       surface water protection
          and promote drinking water and environmental         projects.
          protection goals across State and Federal
          agencies.

                                           8
Local Initiation Approach
                                                      Local Initiation Approach
The State provides assessment information            In California, protection
only; will assist communities that express           initiation and decision-making
interest or ask for technical assistance, but        are locally driven. However,
provides little or no active support in assisting    voters passed Proposition 50 in
                                                     2002, which provides
communities and PWS to develop or                    $14 million in State grants for
implement source water protection activities.        drinking water protection.



These approaches are not mutually exclusive; over one-half of the States are using
a combination of approaches. For example, Region 1 States have Comprehensive
State Groundwater Protection Plans whereby groundwater protection is integrated
throughout environmental programs (comprehensive and integrated approaches)
and also include an education and outreach component (State-driven management
approach). Although some of the State source water protection strategies have
been in place prior to SWAP, such as in Region 1 States, EPA Regional officials
note that as a result of SWAP, there is an increased awareness of the location and
significance of source water areas and that the process has benefitted existing
programs.

Of the many source water protection approaches States are employing, the most
common are the comprehensive and State-driven management approaches. EPA
Regions report that of the 40 States developing or implementing a surface water
protection strategy, 26 States are using a comprehensive approach either alone or
in concert with other approaches. Of the 48 States developing or implementing a
groundwater approach, 31 are incorporating a comprehensive approach.

According to EPA Regional officials, a similar number of States are employing a
State-driven management approach alone or as part of their overall strategy
(26 and 30 for surface and groundwater, respectively). The State-driven
management approach may consist of outreach and education efforts. For
example, in Tennessee and Nebraska, State SWAP managers and partner
assistance organizations visit communities and facilitate developing protection
plans to address potential contaminant sources. This approach may also include
enacting State regulations, such as in Delaware, where State law requires
communities with populations over 2,000 to pass land use regulations to protect
drinking water sources by 2007. Fourteen States have incorporated a regulatory
component to their source water protection strategy. Table 2.1 below shows State
approaches being implemented throughout the country.




                                   9
                             Table 2.1: State Source Water Protection Approaches

                     Source Water          No. of States1 that include this approach as part
                  Protection Approach         of their source water protection program2
                                              Surface water                  Groundwater
                                               protection                     protection
              State-driven Local                     26                            30

              Comprehensive                          26                            31

              Integrated                             19                            21

              Local Initiation                        8                             9
           1
             Includes those States (plus Puerto Rico and Washington, DC) that have either developed
           or are developing a source water protection approach (40 for surface water and 48 for
           groundwater).
              2
             Numbers will be greater than 40 or 48 because many States employ multiple protection
           approaches.


Obstacles Hinder State Efforts to Protect Source Water

          While we found that States are making progress on assessment completion and
          protection planning and implementation, we have identified several obstacles that
          hinder State efforts to protect source water. We asked EPA Regional officials to
          identify the most significant challenges their States face in both initiating and
          implementing a source water protection strategy. (In Appendix B, we list the
          challenges we provided to EPA Regions.) Regional officials reported the most
          significant challenges as:

          •       Lack of financial resources;
          •       Lack of human resources;
          •       No direct EPA legal authority for source water protection; and
          •       Lack of authority of States to require protection.

          Several Regions noted the link among the lack of financial and human resources,
          competing interests, and absence of an EPA mandate for protection. For example,
          Region 7 officials stated that State revenues are declining in all four of their
          States, which limits the ability of States to conduct the necessary public outreach.
          Region 9 officials noted that given the many mandates States must comply with to
          ensure drinking water quality and other environmental protections, as well as
          regulations outside the environmental sector, voluntary programs such as source
          water protection will receive a lower priority for implementation when resources
          are limited. Further, several States in Region 7 prohibit passing legislation more
          stringent than Federal regulations and therefore cannot go beyond a voluntary
          approach.


                                                10
Conclusion

         States are making progress on assessment completion and many are in the process
         of protection planning and implementation. However, the success of a source
         water protection programs lies in States’ capability to sustain protection efforts.
         The lack of financial and human resources and the absence EPA and State
         authority to require protection hinders States’ ability to protect source waters.
         The impact of these obstacles on States’ and communities’ ability to protect
         source waters and recommendations to address these challenges is discussed in
         greater detail in Chapter 4.


Agency Comment and OIG Evaluation

         EPA provided an update on State assessment completion progress. The OIG has
         incorporated this data, as well as technical corrections and clarification provided
         by EPA, into the final report.




                                          11
                                                 Chapter 3
                        Source Water Assessments Valuable,
                        But Use and Accessibility are Limited

                   States and assistance organizations2 are utilizing the source water assessments,
                   but local level use is limited. Assessments are only a tool. Outreach and public
                   education are necessary to inform people that the assessments are available, to
                   help the public understand the information presented, and to show local entities
                   how to take the next step toward addressing risks to drinking water quality.

                   A significant commitment of time and resources is needed to move from
                   assessment to protection, but there is a lack of technical and human resources at
                   the local level to facilitate this transition. Typically, outside assistance from third
                   party groups such as non-governmental organizations is required to encourage
                   utilities and communities to develop protection measures, assist in developing
                   strategies to address potential contaminant sources, and implement the chosen
                   strategies.

                   Several utilities and local officials acknowledged that they could not have
                   proceeded toward their protection program without an outside facilitator assisting
                   them. EPA Regional officials indicated that third party groups, such as the State
                   and Regional chapters of the National Rural Water Association, have played a
                   significant role in the protection progress ongoing in their States. Followup
                   assistance and a continuing source of funding for certain activities are necessary
                   for sustainability.

                   According to the EPA Office of Water, the purpose of the source water
                   assessments is to inform and motivate State and local source water protection
                   activities. As noted earlier, the assessments can be utilized in a variety of ways at
                   the State level. At the local level, they are expected to provide a basis for a
                   community or public water system to develop and implement a source water
                   protection plan. The “Path to Protection” (see Figure 3.1) shows the steps in the
                   local protection planning and implementation process.




2
 EPA, in its role to assist States and localities in utilizing the assessment information to develop management strategies,
contracted with several partners (Environmental Finance Center, Trust for Public Land, Clean Water Coalition, and National
Rural Water Association) to assist communities in source water protection planning and implementation and to facilitate inter-
jurisdictional source water protection efforts. Other groups that have served in this capacity include the League of Women
Voters and State-level resource management entities.

                                                               12
                                            Figure 3.1: Path to Protection



   Review                 Prioritize             Identify,              Develop                Implement                 Measure
   Assessments            Actions                Motivate               Protection             SWP                       Results
                                                 Key Actors             Strategy               Strategy



 Source: Adapted from EPA’s “Path to Protection,” 2003. http://www.epa.gov/safewater/protect/conference/pdf/pathtoprotection.pdf.




States and Assistance Organizations Making Good Use of
Assessments

                  Source water assessments are being successfully used in different ways depending
                  on the assessment user. State agencies are using the assessments to improve their
                  overall drinking water protection program by prioritizing protection efforts and
                  program resources and upgrading contaminant inventories. For State agencies
                  and assistance organizations, the assessments also serve as the starting point in
                  education and outreach efforts toward developing and implementing protection
                  measures.

                  All five States we visited had active drinking water protection activities ongoing
                  throughout the State and are incorporating the SWAPP provisions in different
                  ways. Three of these five States (Delaware, Nebraska, and Tennessee) are
                  incorporating the assessments into their protection programs. Of the two States
                  that are not utilizing the assessments to a significant degree, New Hampshire
                  already had a sophisticated drinking water protection program (Comprehensive
                  State Groundwater Protection Plan, monitoring waiver provisions, and matching
                  funds provided for land acquisition in source water areas) and Colorado has not
                  yet completed and released its assessments to the public.

                  All six of the non-governmental assistance organizations interviewed were
                  actively using the assessments or some portion of the information to assist water
                  utilities and communities in developing source water protection plans through
                  education and outreach. Some of these groups are also serving to facilitate inter-
                  jurisdictional source water protection efforts.

Assessment Use Limited at Local Level

                  Of the 15 local governments/utilities/watershed organizations we visited, 14 were
                  involved in source water protection efforts. However, only three were actually
                  using the assessment document to develop and implement a protection plan. This
                  situation is a significant problem because utilities and local governments are the
                  primary customers of SWAPP.


                                                                 13
                   All three communities using the assessment were doing so with outside
                   assistance. In these cases, the assessments have served as a starting point to
                   performing a more detailed contaminant source inventory, leading to developing a
                   protection program. Protections programs can include both public
                   outreach/education and land use ordinances to address the various contaminant
                   threats. Assessments may also be used as a starting point in discussions with
                   decision-makers as to the importance of protecting a high-quality resource from
                   degradation.

                   According to an EPA Regional official, Congress did not require protection
                   because it hoped that the assessment information itself would spur action at the
                   local level, but this situation was not realistic. State and local entities, as well as
                   assistance organizations, noted that a significant commitment of time and
                   resources is needed to transition from assessment to protection. Often a lack of
                   outreach and assistance exists at the State level as well as a lack of technical and
                   human resources at the local level.

                   Based on our visits with States and local entities, we found that assessment use is
                   limited at the local level for several reasons:

                            Independent assessment activities conducted

                            Of those not using the assessment, several local entities conducted their
                            own contaminant source inventory or were assisted in doing so prior to the
                            State assessment completion, recognizing that some form of assessment is
                            necessary as a precursor to protection.

                            Some local officials unaware of assessment availability

                            Several local officials we met with were not aware that the assessments
                            had been conducted and completed for their community’s water system
                            (even though some were active in protection prior to and independent of
                            the State’s assessment process). In some States, assessments are provided
                            to both utilities and local officials representing the community served.
                            However, in others, assessments are distributed to the utility only, and it is
                            then the responsibility of the utility to make the assessment available to the
                            public.

                            The utility is not always the most effective point of contact/distribution
                            because (1) utility officials may not understand the assessments’ intended
                            purpose;3 (2) in larger utilities, the individual who receives the mailing
                            once the assessment is completed may not be the individual charged with
                            responsibility for source water protection; (3) in smaller utilities, water
3
 Not all utilities had input into the SWAP planning phase and therefore information regarding assessments' intended use and
purpose was not adequately disseminated; according to an Environmental Finance Center representative, many system operators
were unaware of their assessment’s intended purpose and the assessment seemed to appear “out of the blue” to utilities.

                                                            14
operators have many roles and often do not have the time to devote to
voluntary protection initiatives; and (4) in some cases, the utility officials
believe it is against its interest to publicize risk to drinking water.

EPA has made substantial efforts in promoting using the assessments.
EPA funds assistance organizations such as the Environmental Finance
Center (EFC), Clean Water Network, and Rural Water Association
chapters to facilitate inter-jurisdictional protection planning, conduct
source water protection workshops, and assist in developing community
source water protection plans. EPA also provides resources on its Source
Water Protection Website such as the manuals, Consider The Source: A
Pocket Guide to Protecting Your Drinking Water, Funding for Source
Water Protection Activities, and Source Water Awareness Media Toolkit,
which provide information on best management practices, funding sources,
and ideas on how to raise community awareness. However, it appears that
these resources and efforts have not always resulted in widespread
awareness of assessment availability.

Water system operators have difficulty interpreting the results

The intention of assessments, technical information, and/or the source’s
susceptibility rating may not be understood by utilities or other entities
receiving them. In addition, the information may not be provided in a
format that can be utilized “as is.” A Colorado Department of Public
Health and Environment official acknowledged that “the assessments can
be heavy; you need to want to know what is in them.”

A Tennessee Association of Utility Districts representative stated that the
system operators often do not understand the reason for the
low/moderate/high source water susceptibility designation. According to
this official, utilities often need guidance in interpreting the assessment
and implementing protection.

Based on working with drinking water system operators in New Mexico,
an EFC representative stated that smaller system operators tended to have
trouble interpreting the assessments, but in Texas, highly competent
officials of large drinking water systems could not understand their 1,300­
page assessment document. The EFC representative added that officials
of three additional systems she interacted with in Texas had no idea what
to do with their assessment document.

While generally meeting EPA guidance specifications,
assessments are incomplete

Assessments were often based on State regulatory databases. Therefore
data gaps exist and contaminant source locations must be verified at the

                          15
                 local level prior to initiating development of a protection strategy.
                 Data gaps include (1) raw water quality data (i.e., potential contaminants
                 present prior to treatment or disinfection); (2) non-regulated entities that
                 could pose a potential threat, such as junkyards and small automobile
                 mechanics; (3) inaccurate or missing source locations (many of the
                 contaminant source inventories were not verified for location accuracy or
                 completeness); and (4) evaluation of potential risk from future threats such
                 as emerging contaminants, development or other land use change, and/or
                 forest fires.

                 Local officials and utility managers acknowledged that regardless of
                 whether the assessment had been more detailed, they could not have taken
                 the process to the next step because they did not know where to start. A
                 Tennessee Association of Utility Districts representative stated that even
                 existing motivated watershed groups receive outside information and
                 assistance. We found this situation to be true of the Schuylkill River
                 Watershed that serves drinking water to the City of Philadelphia. While
                 the Philadelphia Water Department took the lead on preparing the
                 assessment and developing relationships with over 200 watershed
                 stakeholders, the water system representative stated that source water
                 assessment and protection goals could not be accomplished without the
                 support of the Federal, State, and non-governmental agencies.

Assessment Limitations Impede Transition to Protection

          The availability of assessments is not being adequately promoted, limiting
          accessibility to the information and reducing their potential as tools to initiate
          protection efforts. States should target not only utilities, but also local
          governments, councils, planners, building and zoning officials, and other
          stakeholders, and follow-up with interpretation. Even in large cities, such as
          Philadelphia, where the utility has taken the lead role in assessment and
          protection, the Philadelphia Water Department representative stated that an
          important component of source water protection is the education of municipal
          officials and developers.

          A significant commitment of time and resources is required from the time of
          assessment review to development of a protection strategy. Assistance to utilities
          and communities is often required to interpret the assessment results, address data
          gaps, and transition from assessment to protection (e.g., developing protection
          measures to address contaminants, providing education, and facilitating among
          competing interests). Assessment availability alone is not likely to drive local
          action. Follow-up assistance and a continuing source of funding for certain
          activities will likely be required for sustainability.




                                            16
Data gaps and lack of future risk analysis could become significant limitations to
source water protection implementation if they are not addressed as part of a
source water protection plan. For example, in the Walden Ridge Utility District,
Tennessee, the source water assessment conducted for the groundwater sources
supplying the district determined that the source water was at a low risk for
contamination given the primarily residential land use in its source water area.
However, several individual property owners within the wellhead protection area
conducted activities that could be considered potential contaminant sources (e.g.,
automobile maintenance). These activities were not included in the assessment,
but were discovered when the utility began the more detailed inventory of activity
in the area after a groundwater well was contaminated with waste solvent.

Nonetheless, data gaps and lack of future risk analysis are limitations that can be
overcome with adequate support to local entities. In Nebraska, the contaminant
inventories provided to utilities contained a listing of State-regulated entities only
and were not mapped within the source water areas. However, the staff of the
Natural Resource Districts, which manage groundwater quantity and quality at the
regional level in Nebraska, work with community members and facilitate
contaminant source inventories. According to Natural Resource District
representatives, these inventories are conducted by residents knowledgeable of
the area, include many more potential contaminant sources than the State list, and
are accurately mapped based on field surveys. The Natural Resource District staff
can then use the local inventories as a basis to assist communities in developing a
source water protection plan.

An analysis of future growth and development was not typically included as a
potential contaminant source in the assessment process, nor was there a mandate
to include this type of analysis in the assessment process. However, if
undeveloped land within a source water area is zoned for residential, commercial
or industrial land use, the future development could impact water quality. The
Lakes Region Planning Commission in New Hampshire recognized this and
incorporated potential growth and development patterns into a risk analysis for
future water quality.

The Lakes Region Planning Commission developed a plan with and for the three
communities of Belmont, Northfield, and Tilton to manage their shared
groundwater resource for present and future benefit. The report provides
information to be used in community planning such as population trends, road
traffic statistics, and an analysis of existing land use ordinances and subdivision
regulations to project what type of future land use is likely to take place inside the
aquifer recharge area. This information can be used to calculate future changes in
impervious surfaces from development and serve as a basis for land use decision-
making. Further, the EPA Assistant Administrator for Water agrees that States
and localities should consider future land use changes in assessment updates to
keep ahead of these changes.


                                  17
Conclusion

         Source water assessments can be a valuable tool and serve as a starting point to
         develop and implement a drinking water protection plan. But while States and
         assistance organizations are utilizing the assessments, use is limited at the local
         level. A significant commitment of time and resources is needed to augment the
         contaminant inventories and to move from assessment to protection. There is a
         lack of technical and human resources at the local level to facilitate this transition.

         In addition, the source water assessments’ availability is not being adequately
         promoted, limiting accessibility to the information and reducing their potential to
         initiate protection efforts. While some have been able to address these limitations,
         the program could benefit from better publicity and distribution of the assessments
         as well as education and outreach to local officials charged with making decisions
         related to water quality.

Recommendation

         We recommend that the Assistant Administrator for Water:

         3-1	   Encourage States that have not yet released their assessments to the public
                to target not only utilities, but local governments, councils, planners,
                building and zoning officials, and other stakeholders. States that have
                released the assessments should be encouraged to provide copies of the
                assessments to these additional stakeholders during the protection phase of
                the program. States should also be encouraged to the greatest extent
                possible to follow assessment distribution with interpretation and direction
                on how to take the next step. States can help by identifying opportunities
                for technical assistance and financing for protection planning and
                implementation.

Agency Comment and OIG Evaluation

         In a March 4, 2005 response to our draft report (see Appendix D), the EPA
         Assistant Administrator for Water agreed that assessment content, utility, and
         availability can be improved. The Agency stated that it is aware that there are
         variations among States in the amount of local information presented in
         assessments based on time and resources available and that it considers the

         assessments released “initial assessments.” The Agency expects that utilities and
         community representatives would verify the assessment information, make
         additions where needed, and update as necessary.

         We believe this is a valid expectation. However, resources and technical ability
         vary greatly at the local level and, as we have found, there are cases where the

                                           18
utility or community representative requires substantial assistance to enhance the
assessment for practical use. Therefore, it is crucial to the success of this program
that EPA and States assure that locales get the technical assistance needed to
verify and update their assessment as well as to organize efforts to implement
source water protection activities. Further, EPA agrees with the recommendation
that it should encourage States to follow assessment distribution with local level
assistance in assessment interpretation and in planning and implementing the next
steps in protection.

In response to OIG’s recommendation 3-1, the EPA Assistant Administrator states
that while the Agency agrees that key community stakeholders need to see the
State assessments, water utilities should be the initial and primary target audience.
 EPA states that once the utility adds information to the assessment (either for
accuracy or to update in the future), States should work with the water system
operator to incorporate information from other stakeholders.

The OIG agrees that the utility is an appropriate first target, but in order to ensure
that all potential stakeholders have ready access to the information, EPA should
encourage States to work with utilities to see that the assessment reaches other
interested parties. This chapter identifies obstacles to assessment distribution
where the utility is the primary point of contact. Expanding assessment
distribution will allow decision-makers greater access to the information. The
greater access there is to the assessment, the greater the probability it will receive
public attention and generate action.




                                  19
                                                Chapter 4
                            Substantial Obstacles Faced,
                         But Opportunities to Overcome Exist
                   The potential for the SWAPP to achieve drinking water protection goals will
                   depend on how well States address program needs and obstacles in the coming
                   years. Based on interviews with State SWAP managers, the greatest gaps in State
                   SWPP needs are human resources, financial resources, enforcement capability,
                   and environmental program coordination. The most common and significant
                   challenges4 to State and local source water protection identified by States are:

                   •    Lack of financial resources
                   •    Competing interests (e.g., infrastructure, security)
                   •    Drinking water utilities have no zoning enforcement capabilities
                   •    Limited inter-jurisdictional control among neighboring municipalities
                   •    Difficult to regulate practices on private land
                   •    Resistance by those opposed to reduction of their pollution
                   •    Lack of public buy-in

                   In addition, EPA Regional and State officials identified geographic region-
                   specific challenges, such as limited local control over activities on Federal lands.

                   However, we found several States and localities working to overcome some of
                   these gaps and obstacles in innovative ways, as well as motivating factors and
                   ways to increase program participation. This chapter describes the most pressing
                   obstacles to success in drinking water protection and ways to begin to overcome
                   them.

State Programs Face Obstacles to Protection Goals

                   Lack of human and financial resources are obstacles that many programs face, and
                   SWPP is no exception. As noted by officials in one Region, these resources have
                   and will always be limited; the question is just how big is the gap between
                   resource need and what is available. Further, the nature of source water
                   protection planning is such that a significant level of hands-on local level outreach
                   and education is required to achieve goals and objectives.




4
 States were provided list of challenges, which they ranked on a scale of 1-5, where 1=not an issue of concern, and
5=prohibitive. “Most common” challenges were those ranked at least “2" by four or more States; “most significant challenges
were those ranked “4" or “5" by at least three States. This list includes those challenges that are considered both the most
common and most significant.

                                                              20
                  Adequate enforcement of existing environmental regulations, coordination among
                  environmental programs, and cooperation among State and Federal agencies are
                  necessary to support State and local source water protection efforts and ensure
                  their sustainability.

                  The current level of State source water protection staff is not sufficient to
                  reach all communities in need of assistance

                   As stated in Chapter 3, assessments alone are not likely to stimulate local action.
                   A facilitator, particularly a local presence with the ability to build rapport with
                   utility managers and community leaders, can significantly improve participation
                   in source water protection planning and implementation. However, building trust
                   can take a long time – 6 months or more – according to Idaho Department of
                   Environmental Quality (IDEQ) officials. Given that the number of drinking water
                   systems in a State may be in the hundreds or thousands, State program staff
                   cannot achieve this alone. Further, given that source water protection activities
                   are voluntary, protection programs tend to be understaffed when mandatory
                   programs are given priority in terms of human and financial resources.

                   Not only are State staff not sufficient in number to reach all communities in need
                   of assistance, but State SWAP lead agencies are losing staff and expertise because
                   in some cases as employees leave an agency, they are not replaced due to State
                   government employment caps and hiring freezes. Therefore, even if EPA
                   provided additional financial resources, some States still could not hire additional
                   people to carry out the protection programs.

                   Financial resource limitations leave State programs vulnerable

                   Sustainability of a State source water protection program relies on continuing
                   financial support. While current financial resources may be sufficient to support
                   programs in the short term, State source water protection programs are vulnerable
                   in the long run. In addition, although funding options are available through other
                   State and Federal programs5, there is no single consistent and secure source of
                   funding for source water protection activities. Four out of the five States we
                   visited during fieldwork reported that they rely solely on the DWSRF set-aside
                   for protection program administration and implementation. To continue the
                   program each year would require renewal of this funding. This leaves the
                   sustainability of the program vulnerable because the DWSRF is an annual
                   appropriation. If Congress decides to cut the funds, there is a danger that States
                   would cut their source water protection program.

                   In addition, both Colorado representatives and EPA Region 9 officials identified a
                   funding gap for drinking water protection projects with surface water sources.
                   Nationally, 67 percent of the US population relies on surface water sources of
                   drinking water. The DWSRF set-aside intended for the Wellhead Protection
5
 EPA released Funding for Source Water Protection Activities (2003), which can be found at:
http://www.epa.gov/safewater/protect/pdfs/guide_swp_swp_funding_matrix.pdf.

                                                             21
Program may be used for groundwater protection projects only; there is no
corresponding funding source specifically for surface drinking water protection
projects. According to EPA Office of Water, Congress is considering re­
authorization of the fund but to date no action has been taken to change the
provision to include surface water protection project eligibility. EPA Region 9
noted that this is a significant barrier hindering Nevada’s development of a
surface water protection strategy since 90 percent of Nevada’s population
serviced by public drinking water relies on surface water sources.

Lack of State enforcement capability can counter current and future
protection benefits

States identified the lack of enforcement capability as a significant gap in
program needs. Both New Hampshire and Tennessee reported that enforcement
capability was prohibitively lacking due to limited staff and effectiveness of State
enforcement efforts outside source water assessment and protection programs.
The lack of SWAP managers’ authority to enforce water resource protection
regulations requires increased reliance on outside programs and agencies through
program integration and coordination.

Overall, it is difficult to enforce against actions that endanger source waters. For
example, even in Nebraska, where the Nebraska Department of Health and
Human Services has the authority to enforce water quality violations, the agency
is still limited because it cannot enforce measures to prevent contamination.
Delaware officials noted that they rely on other programs for enforcement.

Environmental program coordination needs improvement

Three of the five States surveyed during fieldwork reported less than adequate
environmental program coordination within the SWAP lead agency. Based on
interviews with EPA Regions, 23 States are developing or implementing
environmental program integration as part of a source water protection strategy.
While States recognize the importance of coordination, they are still in the early
stages of communication. For example, Colorado SWAP managers stated that
they may need to integrate with other programs but have not yet done so.

Lack of coordination can put water quality at risk. Tennessee Department of
Environment and Conservation (TDEC) officials have identified several
petroleum underground storage tank sites within wellhead protection areas that
have been impacted by a contaminant release. TDEC officials noted that these
sites are classified by the TDEC Division of Underground Storage Tanks as “non­
drinking water areas.” The EPA OGWDW and the Office of Underground
Storage Tanks issued a joint memorandum encouraging coordination of source
water assessment results with the Underground Storage Tank program to reduce
the risk of underground storage tanks to drinking water. According to TDEC
source water protection officials interviewed, a TDEC Division of Underground
Storage Tanks staff member has requested certain data from their office, but these

                                 22
officials have not observed any subsequent action. Challenges to coordination
include lack of data compatibility and perceived disinterest on the part of the
Division of Underground Storage Tanks.

Inter-state agency cooperation in early stages

States reported being in better shape in terms of inter-state agency cooperation
(i.e., with State Departments of Transportation), though this was also in the early
stages. TDEC reported recent communication with the Tennessee Department of
Transportation with regard to erosion control and damage to watersheds. The
New Hampshire Department of Environmental Services has a memorandum of
understanding (MOU) with the New Hampshire Department of Agriculture,
Markets, and Food on complaints, and with the New Hampshire Department of
Transportation regarding road building to keep road drainage out of wellhead
areas.

Cooperation with Federal agencies varies by agency and location

Source water protection also presents challenges that impact certain geographic
areas of the United States more than others. For example, States and local entities
have little or no control over activities on Federal lands. Region 8 officials stated
that protection from contaminants generated on Federal lands is a significant
barrier in the region. In 11 western states, the Federal government owns at least
one-half of the land area in approximately 60 percent of the region’s watersheds.
Federal lands and associated activities such as timber harvesting, road
construction, grazing, recreation, and mining have been identified as contributing
a substantial portion of pollutant loadings to waterbodies in several western
States.

IDEQ officials stated that land management for water quality varies by region.
For example, IDEQ staff indicated that the United States Forest Service (USFS)
in southeast Idaho tends to cooperate with the IDEQ, whereas the agency is less
cooperative in the northern part of the State. This was reportedly due to regional
variation in resource availability. In one instance, the USFS installed a septic
system located above a well field in one of its campgrounds in Idaho. Aware of
this, according to IDEQ representatives, the agency claimed that it was not
required to respect source water protection areas. However, the IDEQ also
acknowledged that some individual USFS regions have expressed the desire to
incorporate the source water assessment delineations into their forest management
plans. In another example of cooperation, USFS officials we met with in Grand
Junction, Colorado stated that the agency in this district invites public
participation in their forest management planning process.

The City of Grand Junction, Colorado, is served by surface water atop Grand
Mesa Mountain, and its watershed contains land owned by the City of Grand
Junction, the USFS, and the Bureau of Land Management (BLM). The City of
Grand Junction has managed the watershed under MOUs with the USFS since

                                 23
1915. In 1990 the City coordinated with BLM to develop the Grand Mesa Slopes
Special Management Area Plan to manage the multiple uses of the watershed area
(drinking water, recreation, wildlife habitat, etc.), but specifically for protection
of the land and water, and to preserve open space from development.

Despite these agreements, agency missions can counter and supersede local
protection goals. For example, while BLM and USFS officials both operate under
“multiple use” mandates with staff responsible for water quality management
activities, they also believe a municipality has the responsibility to treat its
drinking water.

In this particular case, BLM sold gas leases in the Grand Mesa watershed located
near a drinking water intake. The City then attempted to pass a watershed
protection ordinance to prevent the potential release of toxic chemicals and
sediment from gas development activities. The ordinance was strongly opposed
by the USFS and BLM, both citing that cities were not permitted to exercise
extraterritorial control on Federal land. According to USFS officials, several
towns in their jurisdiction had proposed watershed ordinances with the intent to
restrict activities on federal land. USFS representatives noted that they were
concerned that if the Grand Junction ordinance passed, other towns would attempt
to follow suit in trying to restrict Federal activities, particularly gas development
on watershed lands, without the legal authority to do so.

The USFS worked with the City of Grand Junction to resolve the issue and to
resolve similar issues in their district by entering into a five-year MOU (the
existing MOU had expired). Although gas development proceeded in the Grand
Mesa watershed, the City is in the process of drafting another MOU with BLM to
address future land use issues.

While all parties involved are working to resolve watershed management issues in
Grand Mesa without participation of higher level agency officials or State
government, the outcome is not without struggle, and cooperation across States
can vary greatly by USFS and BLM agency district. Ten Federal agencies
(including EPA) signed the 1999 Federal Multi-Agency Source Water Agreement
in which these agencies pledged to “support State and tribal government efforts to
complete drinking water source assessments nationwide and support source water
protection programs with the primary goal of protecting the nation's drinking
water.” USFS officials we spoke with were unaware of this agreement; BLM
officials were familiar with the agreement, but any action taken would be via
mandate from State-level managers.




                                 24
Key Factors in SWAPP Potential for Success

          The obstacles presented above impose significant challenges to States and
          communities in providing adequate protection of drinking water sources.
          However, we identified the following practices that have the potential to bridge
          some of this gap.


          Leverage human, financial, and technical resources from assistance
          organizations

          Assistance organizations not only have the
          ability to reach out to more communities and       Obstacles Addressed:
          provide more direct assistance than can an         T Lack of financial resources
          individual State, but can also contribute to the   T Competing interests
                                                             T Lack of public buy-in
          overall success of State protection programs
          given their non-governmental status and
          ability to build community relationships and
          rapport.

          Many States rely on assistance organizations such as the State chapters of the
          National Rural Water Association (NRWA), whose staff helps communities
          interpret the assessment and move toward protection. Rural Water Association
          (RWA) chapters help communities prioritize contaminant sources, determine
          which ones they can address, and help to develop a protection plan of
          management strategies. While the RWA will facilitate the process, in some States
          a local leader is also chosen. In Idaho, the Idaho RWA makes sure the group
          continues to meet regularly after the plan’s implementation to followup on the
          implementation schedule.

          However, some States have had mixed results working with RWAs. At times, the
          RWAs seem to pursue their own agenda apart from the State goals and success
          can depend on the skill and personality of the individual technician. In Nebraska,
          the Nebraska Department of Environmental Quality (NDEQ) works with Natural
          Resource Districts and the Nebraska RWA, but officials stated that there is no
          requirement for cooperation between the State and RWA noted in the EPA
          contract. According to NDEQ officials, Nebraska’s RWA chapter staff told
          utilities not to cooperate with the State. Nebraska overcame this obstacle by
          working with the RWA and discussing concerns. EPA Office of Water officials
          stated EPA is working with Regions, States, and NRWA to increase coordination
          and communication efforts. For example, EPA is taking steps to balance the
          needs of NRWA technicians and State government officials. Officials note that
          this process will take some time.




                                           25
Form partnerships with all stakeholders, and bring the opposition to your
side

Those who would like to implement
drinking water protections often do not           Obstacles Addressed:
have the authority to regulate land use,          T	 Drinking water utilities have no
activities, or contaminants. They also may           zoning enforcement capabilities
                                                  T	 Difficult to regulate practices on
face political or legal opposition in doing          private land
so. 	Therefore, effective communication           T Resistance by those opposed to
and inclusion of affected parties of an              reduction of their pollution
initiative is crucial to a plan’s desired         T Lack of public buy-in
outcome.

Toward its objective of protecting water quantity and quality, New Castle County,
Delaware is trying to limit impervious land cover. The county has communicated
with the development industry and individual builders, as well as professional
associations to encourage site and building designs that maximize water quantity
and quality protection. Developers now buy into the concepts in order to get their
projects approved. New Castle County representatives noted that one of their
“lessons learned” is to involve developers in the process of water protection so
that they see the benefit of landscape practices that increase recharge and the
possible increase in the value or resale value of the property.

Similarly, in Manchester, New Hampshire, Manchester Water Works operated a
closed watershed until 20 years ago, when it began to allow snowmobilers to use
the area for recreation. Manchester Water Works decided it was in the best
interest to work with recreational groups to encourage concern as to the well
being and security of the watershed area they were using. Manchester Water
Works conducted outreach to the snowmobile community, a mountain bike
association, and local conservation commissioners. Manchester Water Works
reports that these groups have been cooperative and participate in watershed
protection measures, such as building bridges to cross streams and litter control.

Maximize public interest and participation

The primary motivating factors for States
and local entities that have taken action to       Obstacles Addressed:
protect drinking water sources are                 T	 Limited inter-jurisdictional
protection from future threats, followed by            control among neighboring
the desire to address a significant existing           municipalities
                                                   T	 Difficult to regulate practices
threat or contamination (a list of motivating          on private land
factors used in the interviews is included in      T Resistance by those opposed to
Appendix C). However, the challenge                    reduction of their pollution
remains as to how to motivate additional           T Lack of public buy-in
communities to protect source waters from
existing or future contamination. Although
EPA Regional offices cited public interest as a significant motivator, neither
States nor locales identified this as a primary factor; rather, they expressed a lack
of public interest and participation, particularly when no contamination exists.

                                  26
Officials at all levels agree that education is a key tool, but it must be used
effectively to achieve desired results.

We found that the following activities can help to improve public interest and
increase participation:

       Promote multiple benefits of source water protection
       To address resistance as well as general apathy, several local entities cited
       success in promoting the multiple benefits of source water protection, such
       as increased property values, as well as using disincentives, such as
       withholding services from proposed development projects if certain
       practices are not incorporated. For example, in Lancaster Township,
       Pennsylvania, an environmental group worked with developers and the
       township to streamline the development process for low impact
       construction. According to Pennsylvania Department of Environmental
       Protection officials, the developer is seeing the economic benefit to this
       type of construction in increased land and building value.

       Source water protection measures such as land conservation can also have
       an economic benefit to utilities in the form of lower drinking water
       treatment costs. For example, a 2002 study conducted by the Trust for
       Public Land and the American Water Works Association found that for
       every 10 percent increase in forest cover in a source water area, treatment
       and chemical costs decreased by 20 percent (cost is expected to level off
       after approximately 70 percent forest cover).

       Develop and promote incentives
       Incentives can take many forms. IDEQ requires that a community have a
       source water protection plan in place to receive loans for any project
       initiated by various partners such as local governments, State agencies,
       and Idaho RWA. (These agencies participate in an MOU regarding
       conditions of loan approvals.) Therefore, it is an incentive for a
       community to develop a source water protection plan in order to be
       eligible for other State funding.

       Nebraska also has a source water protection plan approval process. The
       process is voluntary, but there is a legal framework for utilities to follow if
       they choose to implement a protection plan. Often the RWA
       representatives or other assistance organizations will assist the lead SWAP
       agency in both the development of criteria as well as in the plan approval.
       State approval acts as an incentive by (1) giving credibility to protection
       activities, (2) acknowledging and providing recognition to pro-active
       efforts, (3) letting locals know they are on the right track, (4) allowing
       others to learn about activities and follow suit, (5) providing a means for
       States to track and measure progress, and (6) identifying obstacles to help
       communities overcome them.




                                  27
       Target and personalize outreach
       Non-governmental organizations and States provided some insights as to
       how to increase participation in source water protection activities. These
       include:

       •	 Piggy-back onto existing interest group meetings
       •	 Personalize the invitation process and conduct followup with potential
          participants

       EFC recommended that one way to get participation and the message out
       is to piggy-back on existing meetings and conferences to get the message
       out. TDEC also found this to be true; the best participation numbers were
       obtained when they presented at a garden club or other existing meeting.

       NDEQ also expressed concern over the lack of public buy-in and that the
       assessments are not really generating interest among the general public
       through availability alone. When the NDEQ first tried to hold public
       meetings regarding assessments and protection, mass mailings did not
       work. The NDEQ found that other tools were more successful, such as
       personal invitations and followup phone calls, particularly when initiated
       by someone known personally to the individual, saying it is important that
       they attend. NDEQ officials noted that when using a newspaper
       announcement alone, meetings got minimal turnout, while the
       invitation/phone method was very successful in generating public
       participation.

       Tailor your pitch and use site-specific examples
       The TDEC partners with the Tennessee Association of Utility Districts to
       conduct source water assessment and protection workshops for water
       system operators throughout Tennessee. A Tennessee Association of
       Utility Districts representative stated that in order to get the message
       across to utilities, communities, and municipal officials, one needs to
       (1) identify the issue that each group can relate to and focus on this
       hotspot; (2) use local examples when promoting source water protection;
       and (3) use a creative approach that can capture an audience’s attention,
       such as photographs and stories with “shock value.” For example, in an
       industrial area along a river, one could focus on concerns with chemical
       contamination on one side of the river and emergency response or
       contingency planning on the other side.

Third-party facilitation can improve success of inter-jurisdictional
protection efforts

During our fieldwork, we visited with           Obstacles Addressed:
representatives from Tilton, Belmont, and       T Limited inter-jurisdictional
Northfield, New Hampshire, three                   control among neighboring
                                                   municipalities
communities that have entered into a joint      T	 Difficult to regulate practices
source water protection agreement to               on private land
manage a shared aquifer. These towns had        T	 Lack of public buy-in

                                28
little prior history of coordination. The New Hampshire Lakes Region Planning
Commission facilitated the initiative. Though plan implementation is in its early
stages, participants noted that their experience suggests that a voluntary approach,
including education and public involvement, can lead to a positive outcome. In
addition, there is a need to work with local governments, form partnerships, and
share knowledge because this allows one to leverage resources and improve
public buy-in.

An EFC representative stated that a neutral facilitator was the most important
component in the success of inter-jurisdictional source water protection. Though
the facilitator has an integral role, the group must make its own decisions
throughout the planning and implementation process if the source water
protection goals and objectives are to be reached.

According to the EFC representative, the facilitator must get the group to the
point where it can function on its own in order for the protection effort to be
sustainable. The amount of time this takes will vary depending on the size of the
system and/or the number of groups involved in the program. In EFC’s
experience with inter-jurisdictional source water protection plans, the facilitator
maintained involvement between one and two years (approximately 18 months in
most cases.) While not all groups EFC has worked with were able to reach this
point, those that have appear to have succeeded in carrying out their goals and
objectives.

Improved program coordination within the SWAP lead agency and among
State and Federal agencies could benefit source water protection

EPA supports program integration to
further source water protection goals.       Obstacles Addressed:
In EPA's SWAPP guidance document,            T Lack of financial resources
it emphasizes program coordination           T Drinking water utilities have no
and integration as a key component               zoning enforcement capabilities
                                             T	 Limited inter-jurisdictional control
and goal of SWAPP. Many of the                   among neighboring municipalities
agencies interviewed have recognized         T Difficult to regulate practices on
SWAPP potential in program                       private land
improvement and integration, are             T	 Resistance by those opposed to
planning integration, or have begun to           reduction of their pollution
implement a strategy to incorporate          T	  Lack of public buy-in
the assessment information into other
programs. When agencies integrate
and coordinate programs and activities, resources from each of the programs are
used to initiate source water protection activities, which can ultimately benefit
water quality.

The OGWDW recently released a memorandum to all Regional Water Division
Directors and Regional Underground and Leaking Underground Storage Tank
program directors identifying the opportunity to coordinate source water
assessment results with the Underground Storage Tank program to reduce the risk
of petroleum underground storage tanks to drinking water sources. In addition,

                                  29
         according to the EPA Assistant Administrator for Water, EPA began to
         reinvigorate the 1999 Federal Multi-Agency Source Water Agreement in July
         2003 with an inter-agency roundtable to discuss coordination of floodplain
         management with source water protection. EPA Regional officials and State
         representatives understand the importance of program coordination, but as Region
         3 officials acknowledge, in investing this time, one is taking it away from
         something else and there is a need to show results from these efforts.
         In both State and Federal agencies there is typically a structural split between
         drinking water programs and programs aimed at other water uses (e.g., fishing
         and swimming), and EPA Office of Water cites this division as an institutional
         barrier. However, it is possible to integrate these programs despite the split. It
         was noted by EPA Region 1 officials that Connecticut successfully integrates its
         water
         quality management programs for multiple uses despite the split of duties between
         the Connecticut Department of Health and the Connecticut Department of
         Environmental Protection.

         SWAPP encourages the use of information in other programs, by watershed
         groups, and in Total Maximum Daily Load development. For example, prior to
         SWAPP, the Total Maximum Daily Load process was not really focused on
         drinking water. Now, particularly with regard to nutrients and sediment, States
         such as Delaware are beginning to tie Total Maximum Daily Load work to the
         source water assessments so that programs designed to protect water for fishing
         and swimming also promote the needs of drinking water quality management.

Conclusion

         SWAPP can serve as a valuable tool in drinking water protection, but it is not
         effective as the only tool. While States are making good progress on completing
         the assessments and are actively developing and implementing source water
         protection strategies, source water protection is just one component in a drinking
         water quality management framework. Providing safe drinking water requires
         attention to infrastructure, treatment, and monitoring, as well as compliance with
         environmental and other regulations. Given that SWAPP cannot control all of
         these factors and that contamination at times is inevitable, the program, even if
         effectively implemented, does not guarantee prevention of surface water quality
         degradation or that wells will not continue to be shut down due to contamination.

         Nonetheless, source water protection does have the potential to reduce the risk of
         contamination and associated health impacts, reduce the cost of water treatment
         where necessary, and provide other economic and environmental benefits, such as
         increased property values and allowing multiple uses of the water resource.
         Therefore, source water protection should be pursued as the first step in the
         multiple-barrier approach to drinking water protection.

         For SWAPP efforts to reach their potential, the assessments must be accompanied
         by adequate EPA support to States and adequate support of States to communities
         and utilities. A multi-faceted approach advocating multiple benefits such as
         security and SDWA compliance, enacting local regulations or non-regulatory

                                         30
           programs, and education and outreach must be implemented for successful
           drinking water protection. A more secure and consistent funding source will be
           necessary to support drinking water protection over the long term. States and
           local entities will also have to rely strongly on intra- and inter-agency
           coordination, program integration, partnerships, and collaborative efforts to
           leverage human and financial resources, technical assistance, and outreach to
           utilities and communities.

Recommendations

    We recommend that the Assistant Administrator for Water:

    4-1     In order to improve the prospect for SWAPP success in the future and its
           sustainability:

           a. Issue a public statement to re-affirm and make it clear to States that this
              program is a priority, that the source water assessments are beneficial, and
              that EPA is dedicated to continuing to support the source water protection
              phase of the program.

           b. Delineate the State role in this next stage of the program, see to it that States
              prioritize source water protection (possibly within the State DWSRF plans),
              and provide feedback on the State’s protection strategies as they develop. In
              addition, delineate future plans for program enhancement, such as updating
              assessment information and addressing data gaps.

           c. Provide guidance to States on how to leverage financial and technical
              resources from other EPA programs, partners, and stakeholders.

    4-2    Continue to work with Congress to allow future DWSRF set-asides to be
           designated for “source water protection,” which would include both groundwater
           and surface water sources.

    4-3    Continue to work with NRWA to remove barriers to NRWA-State coordination
           and collaboration on source water protection. Clearly delineate and communicate
           NRWA’s role in source water protection to NRWA and the States and follow up
           with States on their satisfaction with State chapter cooperation.

    4-4    Work with Regions and States to determine how best to disseminate locally-
           applicable best practices at the State and local levels for (a) contaminant source
           management strategies and (b) how to motivate and sustain local level action. In
           addition, continue to monitor protection programs and identify common elements
           of success for promotion in future protection efforts.

    4-5    In coordination with Regions and States, identify points of integration among
           environmental programs and delineate steps to implement program integration
           plans.



                                            31
    4-6	   Assist Regions and States in identifying appropriate State and Federal agencies
           with activities that impact drinking water quality, providing appropriate agency
           officials with information on locations of source water areas and potential
           negative impacts to water quality, and facilitating cooperation among these
           agencies to mitigate these impacts and further drinking water protection.

    4-7	   Continue to engage the 1999 Federal Multi-Agency Source Water Agreement
           participants and determine how agencies are contributing. Based on State and
           Regional needs, identify additional partnership opportunities and determine how
           participation can be further enhanced in the protection phase of the SWAPP.

Agency Comment and OIG Evaluation

    EPA generally concurred with our recommendations and in some cases has taken actions
    to address them. EPA provided details as to the actions the Agency is taking to support
    State and local protection efforts (see Appendix D for additional examples and
    information on EPA activities). We find these activities to be appropriate and encourage
    EPA to continue its efforts. The OIG has incorporated these comments into the
    recommendations and to the body of the report where applicable. The OIG has also
    incorporated technical corrections and clarifications provided by EPA into the final
    report. Selected examples of Agency actions to address many of the recommendations
    are as follows:

       •	 In 2003, the former Assistant Administrator for Water publically announced
          EPA’s support of the SWAPP and declared it a priority.

       •	 EPA states it will continue to highlight to States guidance on funding options for
          source water protection in addition to documents currently available.

       •	 EPA pledges to continue discussions with Congress about possible revisions to
          DWSRF authorizing language on the use of set-asides.

       •	 EPA has worked for the past 5 years to integrate the Clean Water Act and SDWA
          and is coordinating across environmental programs within EPA and with other
          Federal Agencies.




                                           32
                                                                                      Appendix A

                                    Participants

                       Fieldwork Interview Participants
      EPA                      Offices Visited and/or Interviewed
Headquarters       Office of Ground Water and Drinking Water (OGWDW)
Regions            All 10 EPA Regions (drinking water/SWAP managers)
                   Region 1 Clean Water Act program staff

      State                     Agencies, Organizations, and Local Entities Visited
Colorado           Colorado Department of Public Health and Environment, Water Quality
                   Control Division
                   Big Thompson Watershed Forum
                   City of Grand Junction
                   United States Forest Service, Grand Junction
                   United States Bureau of Land Management, Grand Junction
                   American Water Works Association
                   Environmental Finance Center (via telephone)
Delaware           Delaware Natural Resources and Environmental Control
                   Delaware Health and Social Services, Division of Public Health
                   New Castle County Land Use Department
                   University of Delaware
                   Town of Townsend engineer
Nebraska           Nebraska Department of Environmental Quality [(drinking water and Clean
                   Water Act staff (i.e., watershed management/non-point source control
                   programs)]
                   Nebraska Department of Health and Human Services
                   Local officials, citizen, and utilities representing three communities
                   Natural Resource District staff from two districts
New Hampshire      New Hampshire Department of Environmental Services
                   Lakes Region Planning Commission
                   Town and private utility representing three towns in joint aquifer protection
                   plan
                   Manchester Water Works
Tennessee          Tennessee Department of Environment and Conservation
                   Three utility districts
                   One municipal utility
                   Tennessee Association of Utility Districts (Rural Water Association
                   member)

In addition, during preliminary research we visited and/or interviewed EPA OGWDW; EPA Regions
2, 3, and 10; State agencies in New York, New Jersey, Pennsylvania, Washington, and Idaho; local
level representatives in New York, Pennsylvania, and Idaho; and several non-governmental agencies.




                                              33
                                     Local Entity Specifics
       Local Entity Visited                 Population Served             Drinking Water Source
                                              (approximate)


       Colorado
       Big Thompson                                        750,000             Surface water
       Watershed Forum
       Grand Junction                                        41,986            Surface water
       Delaware
       New Castle County                                   500,000             Surface water
       Townsend                                                  351           Groundwater
       Nebraska
       Beaver Lake                                             2,500           Surface water
       David City                                              2,700           Groundwater
       Fairfield                                    Less than 500              Groundwater
       New Hampshire
       Belmont, Northfield,                         Total: 14,741              Groundwater
       and Tilton
       Manchester                                          107,000             Surface water
       Tennessee
       Cleveland1                                           28,000             Surface water and
                                                                               Groundwater
       Eastside                                             18,000             Surface water
       Gladeville                                             4,700            Groundwater
       Walden Ridge                                           1,000            Groundwater
1
  In Tennessee, the utilities visited were "utility districts" consisting of several towns, whole or in part. Exact
population served was unknown; therefore, utility managers provided OIG with the number of connections per
district. According to representatives, each connection may serve several individuals or facilities.




                                                   34
                                                                                                               Appendix B


                                Challenges Survey
Please rate each challenge on a scale of 1-5 of relative significance where:
   1= not an issue of concern;
   2= presents a challenge but the State is actively working to deal with it;
   3= presents a challenge and the State has begun to developed a strategy to deal with it;
   4= presents a significant challenge, the State has not yet begun to address it, but this limitation would not prohibit
      implementation outright; or
   5=significant barrier whose presence by itself prevents the proper implementation of the identified protection
      goals and objectives.

Challenge to Source Water Protection Implementation                                         Level of Significance
 Resources
 Lack of financial resources
 Competing interests (e.g., infrastructure, security)
 Data quality, data gaps
 Lack of technical capacity
 Lack of human resources to handle requests for assistance
 Cost/effort required for public access to assessment information
 Regulatory Challenges
 No direct EPA legal authority for source water protection
 Lack of authority of States to require protection
 Lack of authority of States to regulate development patterns
 Drinking water utilities have no zoning enforcement capabilities
 Limited inter-jurisdictional control among neighboring municipalities
 Difficult to regulate practices on private land
 No State/local control/authority over land use practices on federal lands
 Protection efforts may be blocked by various interests that oppose the
 reduction of their pollution
Where regulations exist, county, State and federal authorities are reluctant
 enforce them (e.g., on agriculture-concentrated animal feeding operations)
 Regulating based on the susceptibility determination where determinations
 were political
Assessments are too general to base land use or other regulatory decisions
and/or do not identify contaminant sources by name
 Lack of public buy-in
 Water operators face conflicts of interest
 Overarching Issues
 Lacking quality data on major drinking water issues such as Cryptosporidium
 and disinfection by-products
 Lack of ambient water quality criteria
 There is existing contamination
 Institutional barriers associated with working with different agencies or
 departments that may not have a history of cooperation




                                                             35
 Challenges Survey (Continued)
Please rate each challenge on a scale of 1-5 of relative significance where:
    1= not an issue of concern;
   2= presents a challenge but the State is actively working to deal with it;
   3= presents a challenge and the State has begun to developed a strategy to deal with it;
   4= presents a significant challenge, the State has not yet begun to address it, but this limitation would not prohibit
      implementation outright; or
   5=significant barrier whose presence by itself prevents the proper implementation of the identified protection
      goals and objectives.

Challenge to Source Water Protection Implementation                          Level of Significance
Program Integration
There has been little communication and a disconnect among related State and
federal programs
Some regulations counter drinking water protection efforts
When trying to manage for water quantity, water quality may be jeopardized
 Other Challenge (specify)




                                                             36

                                                                                      Appendix C

                  Motivating Factors

Motivating Factors for State Source Water Protection Initiatives
 From the list below, please check the top three factors motivating the State to
 take action toward source water protection

 Motivating Factor
 State already has a framework or statutory
 structure
 Monitoring waiver provision of SWAP
 Economic factors
 Public interest
 Political interest
 Multi-agency cooperation and integration of
 water resource management efforts and
 resources
 Water scarcity
 Significant existing threat or contamination
 Protection from future threats
 Other (please indicate)



Motivating Factors for Local Source Water Protection Initiatives
 From the list below, please check the top three factors motivating your utility or
 community to take action toward source water protection

 Motivating Factor
 State has a framework or statutory structure and
 encouraged participation
 State provided financial or technical assistance
 Third party facilitation or assistance (Rural
 Water Association or other)
 Monitoring waiver provision of SWAP
 Economic factors
 Public interest
 Political interest
 Water scarcity
 Significant existing threat or contamination
 Protection from future threats
 Other (please indicate)




                                       37
                                                                                    Appendix D

                              Agency Response
                                      March 4, 2005

MEMORANDUM

SUBJECT:       Source Water Assessment and Protection Program
               Assignment No. 2003-001435, Draft Report

FROM:          Benjamin H. Grumbles /s/ original signed by Benjamin H. Grumbles
               Assistant Administrator

TO:            Nikki Tinsley
               Inspector General

       Thank you for the opportunity to comment on your Office’s draft report, Source Water
Assessment Program Shows Initial Promise. I will respond briefly to your overall points, with
more detailed comments attached (Attachment I).

        The Office of Water agrees with your principal finding, as reflected in the title of the
draft report, that source water assessments promise to be useful for moving to source water
protection. We agree that some states, perhaps most, are developing source water protection
approaches that will improve overall drinking water protection. However, we also recognize and
acknowledge your observations that the assessments can be improved and that there is wide
variation in their availability, use and direct usefulness.

        Your draft report reflects many of the opportunities and challenges to implementing a
national source water protection program. With the source water assessments essentially
complete (see Attachment II showing 93 percent of Community Water Systems complete),
I agree that moving to voluntary protection does require renewed vigorous efforts.

        My Office is working to build state and local capacity for prevention actions based on
source water assessments, integrate source water protection under the Safe Drinking Water Act
and Clean Water Act, and collaborate with other EPA and Federal programs and many
stakeholders. I strongly support these efforts and look forward to continued progress at the
federal, state and local levels.

        With the 30th anniversary of the Safe Drinking Water Act this year, we are increasingly
aware that source water protection is a critical component of an integrated multiple barrier
approach requiring many programs and stakeholders. The Office of Water is implementing
source water protection as part of an overall watershed approach. Because of the wide diversity
of potential contaminants and risks and optional approaches to address the risks, Congress
intended that states and communities have the flexibility to tailor their source water protection
actions to state and local circumstances. States, therefore, have a leadership role in developing
long-term strategies and EPA and other federal programs will need to support them. EPA
recognizes and encourages state efforts to use innovative approaches such as: facilitating

                                                38
collaboration actions at the state and substate levels; targeting current program actions in
delineated source water areas; and encouraging water supply system management approaches
that address multiple public water systems.

       Thank you again for the opportunity to comment on the draft report. If you have
questions regarding our comments, please contact Cynthia C. Dougherty, Director, Office of
Ground Water and Drinking Water, at (202) 564-3750.

Attachments




                                              39
                                            Attachment I

                  Office of Ground Water and Drinking Water’s Comments
                    on the Inspector General’s Draft Evaluation Report:
                  “Source Water Assessment Program Shows Initial Promise”

        Our comments below are intended to assist you in improving the draft report when
finalized. While we agree with some recommendations, we believe that some modifications are
needed to better reflect what it will take for states, localities and the private sector to succeed. In
addition, we have other comments to correct errors in the draft report.

General Comments on the Description of the Basis for the Results of the Draft Report

       First, we believe the report should clearly state at the beginning that the findings and
recommendations are based on a very limited review of states and localities. Although there
were extensive interviews with the EPA Regional offices, there has been limited information
provided by states to the Regions on state and local programs. In addition, there is limited
information that states maintain on local source water protection actions.

        Second, the report should clearly distinguish between the Source Water Assessment
Program (SWAP), i.e., the program Congress authorized under Section 1453 of the Safe
Drinking Water Act (SDWA), and source water protection strategies and activities, voluntary at
the national, state and local levels. The draft report should use the term SWAP only to refer to
assessment program activities. All other activities should be referred to as source water
protection. This difference comports better with the SDWA’s statutory approach and the general
use of these terms in the field.

       Third, one factual error in the text is of particular concern. In the Section titled
“Financial resource limitations leave state programs vulnerable” of Chapter 4 the report
incorrectly states that EPA has tried to lobby Congress regarding the Drinking Water State
Revolving Fund (DWSRF). This statement needs to be eliminated. EPA has not lobbied
Congress relative to the DWSRF, but has responded to requests for technical assistance while
Congress is considering re-authorization of the fund.

        Fourth, there were various references in the report to the lack of a consistent and secure
source of funding for source water protection actions. While there is no one source of federal
funding for all source water protection actions, states have many federal and state funding
options. Released at the 2003 national source water protection conference is a funding options
document on the OW Source Water Website:
http://www.epa.gov/safewater/protect/pdfs/guide_swp_swp_funding_matrix.pdf.

        Fifth, there were numerous references to the limitations to using source water
assessments to move to protection, such as the lack of analysis of future growth and development
in source water areas. OW is aware that there are variations among states in the amount of local
information presented in assessments based on the time and resources available


to them. The final assessments under Section 1453 of the SDWA can be considered initial
assessments. Therefore, OW expects that local utilities and stakeholders would increase the

                                                  40
completeness and accuracy of the assessments with locally available information. While
assessments can be improved, many states and localities are using them already to move to
protection. We also agree with the report in that there is a lack of analysis of future growth and
development in the source water assessments. There was no mandate in Section 1453 to include
such analysis in source water assessments. We agree that states and localities could and should
consider when updating assessments to include forecasts of future land use changes so source
water protection actions would keep ahead of such changes.

EPA Response to Recommendations

Recommendation 3-1:	          Encourage states to target assessments not only to utilities, but
                              also to local governments, councils, planners, building and
                              zoning officials, and other stakeholders. [Related findings:
                              “Some local officials are unaware of assessment availability”:
                              (page 13) “Water system operators have difficulty interpreting
                              the results” (page 14)]

        Through EPA’s cooperative agreements, outreach efforts and conferences from 2000­
2005, EPA has encouraged wide distribution of the source water assessment results at the local
level to ensure wide understanding of assessments and participation in protection activities.
While we agree that key governmental stakeholders and others in each community need to see
the final state-approved source water assessments, water utilities need to be the primary target
audience initially. Accurate information that a utility may own regarding the quality of the
source water used, and possibly source water monitoring information, should become part of any
analysis used for updating assessments, and therefore available to other local stakeholders.
Once the utility has added its local information to the assessment, then we would encourage
states to work with them to ensure that any other stakeholders with information be shared across
the community. In fact, we agree with a recommendation in the report that states and
stakeholders hold dialogues at the local level on what was found by the states in the assessments

        We recognize the difficulties in distribution of the source water assessments to localities
and individuals since the September 11, 2001 terrorist attack, but we still encourage as wide a
distribution of the results as possible under state laws. Many community water suppliers are
required to make the assessment information available by describing the results of assessments
in Consumer Confidence Reports.

Recommendation 4-1(a):	       Issue a public statement to make it clear that this program is a
                              priority for EPA.

        EPA has publicly stated this. In February of 2003, then Assistant Administrator for
Water, G. Tracy Mehan, III, distributed letters supporting source water protection as a high
priority to four state organizations and to all their members-- the Environmental Council of the
States, the Association of State and Interstate Water Pollution Control Administrators, the
Association of State Drinking Water Administrators, and the Ground Water Protection Council.
In addition, at the national source water conference in June, 2003 noted above, Mr. Mehan
delivered a keynote speech before 600 participants supporting source water protection. The
speech was widely reported in the trade press and distributed to all press, and placed on EPA’s
website along with all the papers and results of that conference.


                                                 41
Recommendation 4-1(b):	      Delineate the state role in the next stage of the program, see to
                             it that States prioritize source water protection (possibly
                             within state DWSRF plans), and provide feedback on the
                             states’ protection strategies as they develop. In addition,
                             delineate future plans for program enhancement, such as
                             updating assessment information and addressing program
                             gaps.

        In the EPA Strategic Plan, 2003 – 2008, and in the National Water Program Guidance for
2005, and in the forthcoming 2006 guidance, States are expected to report to EPA on whether
community water systems and their communities are or are not substantially implementing
source water protection strategies. There is an expectation that States will take a lead role in
developing source water protection strategic approaches. In Chapter 3 of the 1997 National
Guidance on Source Water Assessment and Protection Programs, EPA described numerous ways
States could structure and finance source water protection programs, such as a comprehensive
approach statewide, or an approach based mainly on assisting communities. In this same
Chapter, and in various fact sheets publicly available, there is extensive description of the
DWSRF options available to states for funding source water protection actions. EPA is
continually working with states and their national organizations to provide direct assistance,
provide training, and transfer ideas across states.

Recommendation 4-1(c):	      Provide guidance to states on how to leverage financial and
                             technical resources from other EPA programs, partners, and
                             stakeholders.

        EPA will continue to highlight to states guidance on funding options for source water
protection. As noted above, we released at the 2003 national source water protection conference
a funding options document which is now on the OW Source Water Website:
http://www.epa.gov/safewater/protect/pdfs/guide_swp_swp_funding_matrix.pdf. This guidance
describes ways to leverage financial and technical resources from other EPA programs, partners,
and stakeholders, as well as from other Federal agencies and private sources. The Agency’s
Office of Wetlands, Oceans and Watersheds website also has many documents on this topic.

Recommendation 4-2:	         Work with Congress to allow future Drinking Water State
                             Revolving Fund set-asides to be designated for “source water
                             protection,” to include both ground water and surface water
                             sources.

       EPA will continue discussions with Congress about possible revisions to DWSRF
authorizing language on use of set asides.




                                              42
Recommendation 4-3:	          Review the National Rural Water Association (NRWA)
                              Partnership agreement, remove barriers to NRWA-state
                              coordination and collaboration on source water protection,
                              clearly delineate and communicate NRWAs’ role in SWAP to
                              NRWA and the states, and follow-up with states on their
                              satisfaction with state chapter cooperation.

        EPA is working with regions, states and the National Rural Water Association to increase
coordination and communication efforts in implementation of national cooperative agreements
for the separate wellhead protection and source water protection efforts. Both cooperative
agreements clearly define actions NRWA must take to work with states. Communication
protocols are being clarified to balance the need for flexible relationships between state rural
water technicians and state government officials. EPA Project Officers address any situations
that could potentially create barriers to good communication and collaboration on a case-by-case
basis.

Recommendation 4-4:	          Work with the regions and states to determine how best to
                              disseminate locally-applicable best practices at the state and
                              local levels for (a) contaminant source management practices
                              and (b) how to motivate and sustain local level action. In
                              addition, continue to monitor protection programs and identify
                              common elements of success for promotion in future protection
                              efforts.

        EPA has done much in this area and will continue to do so. For example, we
implemented for four years a training program to train all states on such BMPs relative to fifteen
prevalent potential sources of contamination found in source waters. In addition, we are working
very closely with numerous organizations that implemented demonstrations of local source water
protection since 2000 to develop lessons learned from them. A document will likely be
published and widely distributed that will both describe these lessons and some
recommendations based on them for state and local source water protection programs. (Such
organizations include the Trust for Public Land, National Rural Water Association,
Environmental Finance Center Network, and the Ground Water Foundation).


Recommendation 4-5:	          In coordination with regions and states, identify points of
                              integration among environmental programs and delineate
                              steps to implement program integration plans.

Recommendation 4-6:	          Assist regions and states in identifying appropriate state and
                              federal agencies with activities that impact drinking water
                              quality, providing appropriate agency officials with
                              information on locations of source water areas and potential
                              negative impacts to water quality, and facilitating cooperation
                              among these agencies to mitigate these impacts and further
                              drinking water protection.




                                               43
Recommendation: 4-7:          Revisit the 1999 Federal Multi-Agency Source Water
                              Agreement and determine how agencies are participating and,
                              based on state and regional needs, how that participation can
                              be enhanced in the protection phase of the SWAP.

        Recommendations 4-5 through 4-7 address integration of programs at the federal and
state levels to facilitate local source water protection actions. The following response applies to
all three recommendations collectively.

       OW has always and continues to work within the Office, with other EPA program offices
and with other federal agencies to integrate environmental programs. In addition, we have
encouraged states to do the same.

       We have worked vigorously for the past five years to integrate the Clean Water Act with
the Safe Drinking Water Act relative to standards, assessments and monitoring, setting priorities
for waters to be addressed, local plans and strategies and protection program implementation. In
addition, we are coordinating across environmental programs within EPA and with other federal
agencies. Some examples include our work with:

   •	 EPA’s Office of Solid Waste and Emergency Response Underground Storage Tank
      program to integrate source water areas into their priority setting processes;
   •	 EPA’s Office of Pesticide Programs on registration and re-registration requirements for
      several pesticides with source water impacts;
   •	 U.S. Geological Survey on monitoring and source water assessments;
   •	 U.S. Forest Service on several documents for source water and ground water protection;
   •	 Department of Transportation’s Office of Pipeline Safety on designating critical areas;
   •	 Department of Energy on Underground Injection Control program issues.

         The 1999 Federal Multi-Agency Source Water Agreement forged useful relationships to
assist states with implementing SWAPs. In fact, the Agreement also increased federal efforts in
some agencies to do more protective actions for lands, facilities, or regulated entities in or near
source waters (e.g., working with EPA, the Forest Service in USDA published two documents on
source water protection distributed to foresters, will soon publish and distribute a document
on ground water protection, and has been working on maps of source waters to assist foresters
protect water supplies during forest fires.)

        EPA began reinvigorating this agreement in July 2003, when we co-sponsored, with the
Association of State Flood plain Managers, a federal agency roundtable meeting to discuss new
efforts to coordinate flood plain management with source water protection (agencies included
EPA, Army Corps of Engineers, Federal Emergency Management Agency, Bureau of land
Management and U.S. Geological Survey of the U.S. Department of Interior, and the U.S.
Department of Agriculture,)

        EPA has also engaged the Association of State Drinking Water Administrators and the
Ground Water Protection Council to invigorate state source water program offices to engage
other state agencies in source water protection. These organizations are working with their state
members to renew or begin new relationships with other state agencies with facilities or lands
impacting drinking water quality, or that regulate or can influence facilities that are potential
sources of contamination of source waters.

                                                44
Chapter-Specific Comments on Inaccuracies In the Draft Report

Chapter 1

Background: 2nd paragraph, 2nd sentence

    Remove private wells from the list in that sentence. Private wells are not covered under
SDWA source water assessment program which applies to public water systems.

Background, 3rd paragraph

        Neither the State of Florida nor the EPA Region 4 office was contacted to discuss this
claim that was based on “press reports.” It is requested that the IG coordinate with the Region 4
Water Management Division and Florida DEP on the accuracy of this statement before finalizing
this draft report.

Background, 5th paragraph, 3rd sentence

        The paragraph suggests that the success of source water protection depends on enlisting
federal, state, and local government and individual citizens. We agree. However, one key
stakeholder - the private sector - should be added to the discussion. Businesses which are
potential sources of contamination can change practices to reduce loadings of contaminants to
source waters on a voluntary basis and therefore could have a huge impact on the quality of
sources of drinking water and thereby on drinking water quality.

Background, 9th paragraph

   This paragraph should be corrected with accurate information about the possible source
water protection set-aside provisions. The following information is from OGWDW’s website as
well as some information on expenditures through June 2004.

    Up to 10 percent of a State’s allotment can be used for State program management [Section
1452(g)(2)]. Funds can be used to support source water protection programs, which may
include:

C Hiring staff to administer and provide technical assistance through source water protection
    programs
C Completing contamination source inventories and susceptibility analyses.
                   ( $31.5 Million expended under these two sets of activities)

    Up to 15 percent of a State’s capitalization grant can be used for local assistance and other
State programs [Section 1452(k)]. Up to 10 percent of these funds may be used to:

C Make loans to public water systems for purchasing land or conservation easements for the
    purposes of source water protection ($3.0 Million)
C Make loans to community water systems for implementing source water quality protection
    partnership petition programs, or voluntary, incentive-based source water protection
    programs ($8.1 Million)
C   Establish and implement wellhead protection programs ($55.6 Million)

                                                45
C Conduct delineations and assessments of source water areas for public water systems in
   accordance with Section 1453 (using fiscal year 1997 grant funds only). ($95.9 Million)

Chapter 2

“States Making Progress” section, 1st paragraph

       Change the language to reflect that the Safe Drinking Water Act at Section 1453
permitted a state 3 ½ years after EPA approval of its Source Water Assessment Program to
complete it. Thus, the May 2003 deadline is incorrect for many states.

“States Making Progress” section, 3rd paragraph –

    Change this paragraph to include the fact that many states have watershed approaches in
place that could include source water protection actions in delineated surface water-based source
water areas. It is incorrect to categorically state that states don’t have surface water protection
strategies that affect surface-water source water protection.

“States are Using a Variety section”

    Describe up front in this section, and in more detail, that the state source water protection
approaches delineated in this section are not mutually exclusive. In fact, many states employ
more than one of the approaches described. While the attempt to categorize states may be
useful, a more detailed understanding the differences among the approaches would elucidate the
discussion and allow the reader a more full understanding why the categories were created.

Chapter 3

       No Comments on Chapter 3.

Chapter 4

Section titled “Environmental program coordination needs improvement,” 2nd paragraph

        This paragraph incorrectly states that there is an EPA mandate to incorporate the UST
program with SWAP.” EPA issued a joint memorandum from the Office of Ground Water and
Drinking Water and Office of Underground Storage Tanks (OUST) on how the two programs
will coordinate at the regional and state levels. The draft report describes the memorandum
correctly in the last section of this chapter before the conclusions.

        The information concerning Tennessee staff activity/inactivity that are described have not
been substantiated by the Tennessee UST program. We recommend that the current paragraph in
the draft report be substituted with the following paragraph:

       "Lack of coordination can put water quality at risk. Tennessee Department of
       Environment Conservation (TDEC) officials have identified several sites within wellhead
       protection areas that have either been contaminated through the release of a contaminant
       or may not have been fully protected due to lack of information. According to the TDEC
       officials, coordination to resolve the discrepancies has several challenges including

                                                46
       incompatibility of data (lack of GIS) and lack of an integrated database. Environmental
       programs within TDEC are currently working on these and other issues to strengthen the
       protection of both surface and ground water."

Section titled, “Tailor your pitch and use site-specific examples”

        The first paragraph does not include the fact that Tennessee DEC, in cooperation with the
Tennessee Association of Utility Districts, has been conducting source water related workshops
across the state for the water system operators. The operators are provided with a copy of their
assessment results for their systems and are trained on the assessment program and protection
activities. This information should be included in the final report to provide a full and accurate
statement concerning this issue.




                                               47
                            Attachment II



     S ta tu s o f S o u rc e W a te r A s s e s s m e n ts - F e b ru a ry 2 0 0 5
                                                                         P c t a ll
                      S ta te            Pct CW S       P c t a ll N C    PW S
01        C o n n e c tic u t                 100%              100%          100%
01        M a in e                            100%              100%          100%
01        M a s s a c h u s e tts             100%              100%          100%
01        N e w H a m p s h ire                 99%             100%          100%
01        R h o d e Is la n d                 100%              100%          100%
01        V e rm o n t                          91%               85%          86%
02        N e w J e rs e y                        5%                0%            1%
02        N e w Y o rk                        100%              100%          100%
03        D e la w a re                         95%               74%          83%
03        M a r y la n d                        92%               48%          54%
03        P e n n s y lv a n ia                 92%               95%          94%
03        V irg in ia                         100%              100%          100%
03        W e s t V ir g in ia                100%              100%          100%
04        A la b a m a                       9 9 .6 %           100%        9 9 .7 %
04        F lo rid a                            34%               48%          44%
04        G e o rg ia                           89%               16%          64%
04        K e n tu c k y                        98%               68%          91%
04        M is s is s ip p i                  100%              100%          100%
04        N o r th C a r o lin a              100%              100%          100%
04        S o u th C a ro lin a               100%              100%          100%
04        Tennessee                           100%              100%          100%
05        Illin o is                          100%              100%          100%
05        In d ia n a                           51%                 0%         10%
05        M ic h ig a n                       100%              100%          100%
05        M in n e s o ta                     100%              100%          100%
05        O h io                                99%               35%          50%
05        W is c o n s in                     100%              100%          100%
06        A rk a n s a s                      100%              100%          100%
06        L o u is ia n a                     100%              100%          100%
06        N e w M e x ic o                    100%              100%          100%
06        O k la h o m a                      100%              100%          100%
06        T e xa s                            100%              100%          100%
07        Io w a                              100%              100%          100%
07        Kansas                              100%              100%          100%
07        M is s o u r i                      100%              100%          100%
07        N e b ra s k a                      100%              100%          100%
08        C o lo ra d o                       100%                  0%         41%
08        M o n ta n a                          71%               71%          71%
08        N o r th D a k o ta                 100%              100%          100%
08        S o u th D a k o ta                 100%              100%          100%
08        U ta h                                86%               94%          90%
08        W y o m in g                          58%               46%          51%
09        A riz o n a                         100%              100%          100%
09        C a lifo rn ia                      100%              100%          100%
09        H a w a ii                          100%              100%          100%
09        N evada                             100%              100%          100%
10        A la s k a                          100%              100%          100%
10        Id a h o                            100%              100%          100%
10        O re g o n                            72%               63%          66%
10        W a s h in g to n                   100%              100%          100%
          T o ta l                              93%               83%          86%




                                    48
                                                                               Appendix E

                                   Distribution

Office of the Administrator (1101A)

Assistant Administrator, Office of Water (4101M)

Director, Office of Ground Water and Drinking Water (4607)

Agency Followup Official (the CFO) (2710A)

Agency Audit Followup Coordinator (2724A)

Associate Administrator for Congressional and Intergovernmental Relations (1301A)

Associate Administrator, Office of Public Affairs (1701A)

General Counsel (4010A)

Inspector General (2410)





                                             49
